No. 19-67
In the
^xxprBxoB (Haxai ai ii\B
United States of America,
Petitioner,
V.

Evelyn Sineneng-Smith,
Respondent.
CERTIFICATE OF SERVICE
I, Matthew S. Heilman, hereby certify that I am a member of the Bar of this
Court, and that I have this 22nd day of January 2020, caused three copies of the Brief
for Amnesty International as Amicus Curiae in Support of Respondent to be served via
overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
Mark Christopher Fleming
WilmerHale
60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale. com

NoelJ. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Evelyn Sineneng-Smith
Counsel for United States, et al.

'atthew S. Heilman

